<html>
<title> - HONORING OUR COMMITMENT TO RECOVER AND PROTECT MISSING AND EXPLOITED CHILDREN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                       HONORING OUR COMMITMENT TO
                      RECOVER AND PROTECT MISSING
                         AND EXPLOITED CHILDREN

=======================================================================

                                6HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 16, 2017

                               __________

                            Serial No. 115-9

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
            
                            _________ 
 
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-583 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Steve Russell, Oklahoma              Mark Takano, California
Elise Stefanik, New York             Alma S. Adams, North Carolina
Rick W. Allen, Georgia               Mark DeSaulnier, California
Jason Lewis, Minnesota               Donald Norcross, New Jersey
Francis Rooney, Florida              Lisa Blunt Rochester, Delaware
Paul Mitchell, Michigan              Raja Krishnamoorthi, Illinois
Tom Garrett, Jr., Virginia           Carol Shea-Porter, New Hampshire
Lloyd K. Smucker, Pennsylvania       Adriano Espaillat, New York
A. Drew Ferguson, IV, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 16, 2017...................................     1

Statement of Members:
    Bonamici, Hon. Suzanne, a Representative in Congress from the 
      State of Oregon............................................     3
        Prepared statement of....................................     4
    Foxx, Hon. Virginia, Chairwoman, Committee on Education and 
      the Workforce..............................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Clark, Mr. John F., President and Chief Executive Officer, 
      The National Center for Missing and Exploited Children.....     6
        Prepared statement of....................................     8

Additional Submissions:
    Chairwoman Foxx:
        Slide: Protecting Vulnerable Children....................    35
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce:
        Prepared statement of....................................    37
    Questions submitted for the record by:
        Polis, Hon. Jared, a Representative in Congress from the 
          State of Colorado......................................    42
        Roe, Hon. David P., a Representative in Congress from the 
          State of Tennessee.....................................    42
    Mr. Clark, response to questions submitted for the record....    43


                       HONORING OUR COMMITMENT TO



                      RECOVER AND PROTECT MISSING



                         AND EXPLOITED CHILDREN

                              ----------                              


                        Thursday, March 16, 2017

                        House of Representatives

                Committee on Education and the Workforce

                            Washington, D.C.

                              ----------                              

    The committee met, pursuant to call, at 10:00 a.m., in Room 
2175, Rayburn House Office Building, Hon. Virginia Foxx 
[chairwoman of the committee] presiding.
    Present: Representatives Foxx, Roe, Thompson, Walberg, 
Guthrie, Messer, Stefanik, Allen, Mitchell, Garrett, Courtney, 
Sablan, Bonamici, Takano, Adams, Norcross, and Espaillat.
    Staff Present: Courtney Butcher, Director of Member 
Services and Coalitions; Amy Raaf Jones, Director of Education 
and Human Resources Policy; Nancy Locke, Chief Clerk; Dominique 
McKay, Deputy Press Secretary; James Mullen, Director of 
Information Technology; Krisann Pearce, General Counsel; Lauren 
Reddington, Deputy Press Secretary; Mandy Schaumburg, Education 
Deputy Director and Senior Counsel; Alissa Strawcutter, Deputy 
Clerk; Leslie Tatum, Professional Staff Member; Sheariah 
Yousefi, Legislative Assistant; Tylease Alli, Minority Clerk/
Intern and Fellow Coordinator; Austin Barbera, Minority Press 
Assistant; Jacque Chevalier, Minority Deputy Education Policy 
Director; Mishawn Freeman, Minority Staff Assistant; and 
Alexander Payne, Minority Education Policy Advisor.
    Chairwoman Foxx. A quorum being present, the Committee on 
Education and the Workforce will come to order. Good morning, 
and welcome to today's hearing on the commitment we as a Nation 
have made to recover and protect missing and exploited 
children.
    So much of the work we do on this committee is about 
creating opportunities for individuals to learn, grow, and 
achieve success in their lives. Unfortunately, statistics and 
the nightly news continue to act as shocking reminders that too 
many children in this country are not thinking about the 
future. They are thinking about their survival. Last year 
alone, there were more than 465,000 reports of missing 
children.
    No child should live in fear of being taken from his or her 
family. No child should live in fear of abuse or exploitation. 
No child should live in fear of becoming the victim of a 
heinous crime. No child should live in fear, period.
    That is why protecting our most vulnerable children has 
long been a national priority. In 1984, the National Center for 
Missing and Exploited Children, or NCMEC, was created to play a 
role in that important effort.
    Since that time, NCMEC has coordinated and supported State 
and local efforts to recover children who are missing, and 
support youth who are victims of violent crimes. The 
organization works with law enforcement, families, schools, 
community leaders, and nonprofit organizations, with a shared 
goal: providing help to children who are in desperate need of 
protection.
    Through a number of initiatives and programs, NCMEC 
operates a 24-hour hotline and a CyberTipline, maintains a 
nationwide database on cases of missing children, and provides 
technical assistance to other recovery and prevention efforts.
    The organization also coordinates resources to victims, 
their families, and the professionals who help them, and it 
engages in public-private partnerships to assist State, local 
leaders, and community partners in their efforts.
    As President Ronald Reagan said when opening NCMEC in 1984, 
``No single sector of our Nation can solve the problem of 
missing and exploited children alone, but by working together, 
pooling our resources, and building on our strengths, we can 
accomplish great things.''
    Today, NCMEC continues the mission articulated by President 
Reagan more than 30 years ago. In 2016, the Center assisted 
with approximately 21,000 cases of missing children. Of those 
cases, 90 percent were endangered runaways, and roughly one in 
six of those children was a likely victim of child sex 
trafficking.
    Over the years, Congress has worked closely with NCMEC to 
ensure it has the tools it needs to do its job effectively. We 
have also worked to ensure taxpayer dollars being used to 
support the Center's efforts are spent responsibly, and that is 
the purpose of this hearing; for an update from the 
organization itself.
    Today, we have with us John Clark, president and chief 
executive officer. Mr. Clark, we are pleased to hear from you 
about the work NCMEC is doing to help vulnerable children 
across the country, as well as the challenges you face and 
improvements that can be made to help NCMEC continue its work. 
As I stated earlier, your efforts play a critical role in a 
national commitment to help our most vulnerable children.
    In the words of President Reagan, ``Together, we can turn 
the tide on these hateful crimes.''
    I look forward to continuing to work with you, and my 
colleagues on both sides of the aisle, to do just that.
    I now yield to Ms. Bonamici as the ranking member for her 
opening remarks.
    [The statement of Chairwoman Foxx follows:]

  Prepared Statement of Hon. Virginia Foxx, Chairwoman, Committee on 
                      Education and the Workforce

    Good morning, and welcome to today's hearing on the commitment we--
as a nation--have made to recover and protect missing and exploited 
children.
    So much of the work we do on this committee is about creating 
opportunities for individuals to learn, grow, and achieve success in 
their lives. Unfortunately, statistics and the nightly news continue to 
act as shocking reminders that too many children in this country aren't 
thinking about the future. They're thinking about their survival. Last 
year alone, there were more than 465,000 reports of missing children.
    No child should live in fear of being taken from his or her family. 
No child should live in fear of abuse or exploitation. No child should 
live in fear of becoming the victim of a heinous crime.
    No child should live in fear. Period.
    That's why protecting our most vulnerable children has long been a 
national priority. In 1984, the National Center for Missing and 
Exploited Children, or NCMEC, was created to play a role in that 
important effort.
    Since that time, NCMEC has coordinated and supported state and 
local efforts to recover children who are missing and support youth who 
are victims of violent crimes. The organization works with law 
enforcement, families, schools, community leaders, and nonprofit 
organizations with a shared goal--providing help to children who are in 
desperate need of protection.
    Through a number of initiatives and programs, NCMEC operates a 24-
hour hotline and a CyberTipline; maintains a nationwide database on 
cases of missing children; and provides technical assistance to other 
recovery and prevention efforts. The organization also coordinates 
resources to victims, their families, and the professionals who help 
them; and it engages in public-private partnerships to assist state, 
local leaders, and community partners in their efforts.
    As President Ronald Reagan said when opening NCMEC in 1984:
    ``No single sector of our nation can solve the problem of missing 
and exploited children alone. But by working together, pooling our 
resources, and building on our strengths, we can accomplish great 
things.''
    Today, NCMEC continues the mission articulated by President Reagan 
more than 30 years ago. In 2016, the center assisted with approximately 
21,000 cases of missing children. Of those cases, 90 percent were 
endangered runaways, and roughly one in six of those children was a 
likely victim of child sex trafficking.
    Over the years, Congress has worked closely with NCMEC to ensure it 
has the tools it needs to do its job effectively. We have also worked 
to ensure taxpayer dollars being used to support the center's efforts 
are spent responsibly. And that's the purpose of this hearing--for an 
update from the organization itself. Today, we have with us John Clark, 
president and chief executive officer of NCMEC.
    Mr. Clark, we are pleased to hear from you about the work NCMEC is 
doing to help vulnerable children across the country, as well as the 
challenges you face and improvements that can be made to help NCMEC 
continue its work. As I stated earlier, your efforts play a critical 
role in a national commitment to help our most vulnerable children.
    In the words of President Reagan, ``Together, we can turn the tide 
on these hateful crimes.'' I look forward to continuing to work with 
you--and my colleagues on both sides of the aisle--to do just that.I 
will now yield to Ranking Member Bonamici for her opening remarks.
                                 ______
                                 
    Ms. Bonamici. Thank you, Chair Foxx, for holding this 
hearing, and thank you, Mr. Clark, for your testimony and your 
expertise.
    Since it was established in 1984, the National Center for 
Missing and Exploited Children has been working to reunite 
missing children with their families and loved ones.
    In 2016, the National Center worked on more than 20,500 
missing children cases, and in Oregon, currently, there are 65 
active missing children cases on NCMEC's website, just in my 
own home State. These are children who are separated from their 
families, who have loved ones looking for them and who need to 
be found.
    In fact, just this week, a nine-year-old girl from Gresham, 
Oregon, went missing overnight. Thankfully, she was located and 
reunited with her mother after a concerned citizen, who had 
seen her picture on the local news, recognized her and called 
the police. The quick distribution of this girl's picture and 
fast thinking of a neighbor prevented tragedy from occurring. 
Unfortunately, many other families are not as lucky.
    The world can be a dangerous place for our children and our 
rapidly advancing technologies can make it even more 
challenging to protect our kids.
    Mr. Clark, I applaud the work you and NCMEC have done to 
not only keep up with technological advances, but to use those 
advances to better protect children.
    I am looking forward to hearing more from you about your 
CyberTipline initiative to receive tips about online sexual 
exploitation, the NetSmartz411 program to educate parents about 
online safety, and the KidSmartz program, to better prepare 
kids for online risks.
    I also want to make sure we address the particular dangers 
facing minority children and our LGBTQ youth. It is a tragic 
fact that abductions of minority children are grossly 
underreported in the media.
    In Washington, D.C., alone, 10 children of color have been 
reported missing since the beginning of March, and only 2 have 
been found so far. Ten missing children in 2 weeks is 
unspeakable. The media has been slow to report on these youths. 
As we know, media reports about missing children are often 
critical for reuniting kids and families.
    Additionally, LGBTQ youth are at an increased risk of 
homelessness if they do not feel welcome in their homes or 
their communities. A 2015 study from the Urban Institute told 
the heartbreaking stories of LGBTQ youth who run away from home 
and engage in survival sex, the practice of trading sex for 
money, food, or a place to stay.
    We must do everything we can to make sure that we are 
protecting all children, including our children of color and 
LGBTQ youth.
    I want to close by expressing my gratitude to Chair Foxx 
and the committee for the bipartisan commitment to extending 
the authorization of the National Center for Missing and 
Exploited Children, and maintaining the Center's independent 
status.
    I hope that we can continue to work together to protect all 
missing and exploited children and reunite them with their 
families.
    Thank you again, Chair Foxx, and I yield back the balance 
of my time.
    [The statement of Ms. Bonamici follows:]

   Prepared Statement of Hon. Suzanne Bonamici, a Representative in 
                   Congress from the State of Oregon

    Thank you, Chair Foxx, for holding this hearing, and thank you, Mr. 
Clark, for your testimony and expertise.
    Since it was established in 1984, the National Center for Missing 
and Exploited Children has been working to reunite missing children 
with their families and loved ones.
    In 2016, NCMEC worked on more than 20,500 missing children cases, 
and in Oregon, currently there are 65 active missing children cases on 
NCMEC's website. These are children who are separated from their 
families, who have loved ones looking for them, and who need to be 
found.
    In fact, just this week, a 9 year old girl from Gresham, Oregon, 
went missing overnight. Thankfully, she was located and reunited with 
her mother after a concerned citizen, who had seen her picture on the 
local news, recognized her and called police.
    The quick distribution of the girl's picture and fast thinking of a 
neighbor prevented a tragedy from occurring.
    Unfortunately, many other families are not as lucky. The world can 
be a dangerous place for our children, and our rapidly-advancing 
technology can make it even more challenging to protect our kids.
    Mr. Clark, I applaud the work you and NCMEC have done to not only 
keep up with technological advances, but to use those advances to 
better protect children.
    I'm looking forward to hearing more from you about your 
CyberTipline initiative to receive tips about online sexual 
exploitation, the NetSmartz411 program to educate parents about online 
safety, and the KidSmartz program to better prepare kids for online 
risks.
    I also want to make sure we address the particular dangers facing 
minority children and LGBTQ youth.
    It is a tragic fact that abductions of minority children are 
grossly underreported in the media. In Washington, D.C., alone, 10 
children of color have been reported missing since the beginning of 
March, and only two have been found so far.
    Ten missing children in two weeks is unspeakable, and the media has 
been slow to report on these youth. As we know, media reports about 
missing children are often critical for reuniting kids and families.
    Additionally, LGBTQ youth are at an increased risk of homelessness 
if they do not feel welcome in their homes or communities. A 2015 study 
from the Urban Institute told the heartbreaking stories of LGBTQ youth 
who run away from home and engage in ``survival sex''--the practice of 
trading sex for money, food, or a place to stay.
    We must do everything we can to make sure that we are protecting 
all children--including our children of color and LGBTQ youth.
    I want to close by expressing my gratitude to Chair Foxx and the 
Committee for the bipartisan commitment to extending authorization of 
the National Center for Missing and Exploited Children, and maintaining 
the Center's independent status.
    I hope that we can continue to work together to protect missing and 
exploited children, and reunite families.
    Thank you again, Chair Foxx, and I yield the balance of my time.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Ms. Bonamici. Pursuant to 
Committee Rule 7(c), all members will be permitted to submit 
written statements to be included in the permanent hearing 
record. And without objection, the hearing record will remain 
open for 14 days to allow such statements and other extraneous 
material referenced during the hearing to be submitted for the 
official hearing record.
    We now turn to introduction of our distinguished witness. 
Mr. John Clark serves as the president and chief executive 
officer of the National Center for Missing and Exploited 
Children. Prior to this position,Mr. Clark's career spanned 28 
years with the U.S. Marshals Service.
    I now ask Mr. Clark to raise his right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Mr. Clark. I do.
    Chairwoman Foxx. Let the record reflect Mr. Clark answered 
in the affirmative. Before I recognize you to provide your 
testimony, let me briefly explain our lighting system. We allow 
5 minutes for the witness to provide testimony. When you begin, 
the light in front of you will turn green. When 1 minute is 
left, the light will turn yellow. At the 5-minute mark, the 
light will turn red, and you should wrap up your testimony. 
Members will each have 5 minutes to ask questions.
    Mr. Clark, you are recognized for your testimony.

   TESTIMONY OF JOHN F. CLARK, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, THE NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN

    Mr. Clark. Alright. Well, good morning, Chairwoman Foxx and 
Congresswoman Bonamici, and members of the committee. I have 
had the privilege and honor to serve as a president and CEO of 
the National Center for Missing and Exploited Children since 
December of 2015.
    Now, NCMEC, as we sometimes refer to it, was created in 
1984 by John and Reve Walsh and other child advocates as a 
private, nonprofit corporation to help find missing children, 
reduce child's sexual exploitation, and prevent child 
victimization.
    Like other large nonprofits, NCMEC receives Federal grant 
and private foundation funding, corporate donations, and 
private individual donations to enhance our work and engage in 
building and promoting a coordinated national response to the 
problem of missing and exploited children.
    I am pleased to be here to provide you with insights and 
updates on NCMEC and the work we have done in the following 
years since the last reauthorization in 2013.
    Many of you are familiar with such and much of the work 
that NCMEC does, so I thought I'd spend my time talking today 
about a few key emerging trends and issues that NCMEC has seen 
and has taken the lead on addressing since our last 
reauthorization.
    The committee has long played a leadership role on the 
issue of child sex trafficking, and I know it is of particular 
interest to many of you today. NCMEC works to combat child sex 
trafficking by assisting with cases of missing children and by 
operating our CyberTipline.
    And additionally, we provide significant support to victims 
and families by helping them locate community-based resources, 
and we assist victims' legal teams in their efforts to seek 
judicial intervention, including restitution.
    As you're aware, NCMEC's CyberTipline serves as a central 
mechanism where the public technology companies can report 
instances of child sexual exploitation, including reports 
related to child sex trafficking.
    In 2016, NCMEC assisted with approximately 9,000 reports 
related to child sex trafficking, but we know that represents 
only a fraction of suspected child sex trafficking victims in 
this country.
    Our handling of child sex trafficking cases has taught us 
that child sex trafficking is also a missing child issue. We 
have found that one in six endangered runaways reported to 
NCMEC in 2016 were likely sex trafficking victims, and of 
those, 86 percent were in the care of social services or foster 
care when they went missing.
    This group of children, who we refer to as ``children 
missing from care,'' is an especially vulnerable group, not 
only for the overwhelming number that can become victims of sex 
trafficking, but also for other dangers that they would face.
    A 2014 law required the States to begin reporting each 
missing or abducted child in State care to law enforcement and 
to NCMEC, and since that bill passed, we've spent a lot of time 
reaching out to social service agencies and local jurisdictions 
across the country to ensure that these vulnerable children are 
reported to NCMEC.
    From these reports, we continue to see a significant 
increase in the number of children missing from care. For 
example, in 2015 to 2016, the number of the cases increased by 
89 percent. Through this enhanced reporting, we have also been 
better able to assist and support the efforts of State and 
local jurisdictions to locate and return missing children to 
safe places.
    Now the issue of sextortion, you know, many of us are aware 
of what's called ``sexting,'' but we are seeing now is that 
sexting often turns out to be something called ``sextortion.'' 
Sextortion is a relatively new form of sexual exploitation that 
occurs primarily online where nonphysical forms of coercion are 
utilized, such as blackmail, to acquire sexual content, such as 
photos or videos of a child, they may obtain money from the 
child, or engage in sexual acts with the child.
    So report to the CyberTipline is a key way to break the 
cycle of victimization. One of the largest extortion cases 
unraveled with one victim, Ashley Reynolds, who was 14 when she 
was victimized. The family became aware of her online abuse and 
reported her case to NCMEC, and we made that information 
available to the FBI.
    Investigators uncovered more than 350 additional child 
victims in 26 States, three Canadian provinces, and the United 
Kingdom. They identified 106 of the children, and a defendant 
was sentenced to prison.
    As you move towards updating our funding authorization, I 
would like to thank you for your leadership and ongoing support 
of our efforts to recover and protect missing and exploited 
children. We stand ready to provide you with our thoughts on 
how to better fund our key programs and streamline our work, 
and serve the public.
    Again, I thank you for this opportunity to appear here 
today. I look forward to your questions.
    [The statement of Mr. Clark follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  

    
    
    Chairwoman Foxx. Thank you very much, Mr. Clark. Mr. 
Guthrie, I recognize you for 5 minutes.
    Mr. Guthrie. Thank you, Madam Chairman, for yielding, and 
particularly to the courtesy of my friends from Michigan and 
Tennessee for allowing me-to yielding this position to me. I 
appreciate it very much.
    I had a previous commitment, but I wanted to talk to you 
because I was the principal coauthor of the reauthorization of 
the Missing Children's Assistance Act, and have been to the 
NCMEC and seen your dedicated employees and the things that 
they do, and some of the miracles.
    One story, I remember, they said they had an age 
appropriate, someone into their teenage years, and this lady 
was in school. They had a picture up, and she looked at it and 
said ``that's me!'' and her father had abducted her from her 
mom and taken her. The story--
    It is just amazing stuff that you guys do, and how much we 
appreciate it.
    So I want to talk about the 2013 authorization. Would you 
discuss what specific changes NCMEC has implemented to comply 
with the changes made in the 2013 authorization?
    Mr. Clark. Sure. Much of the work that's happened since 
2013 has included many of our modernization efforts. We have 
collaborated a lot more with some of our other private 
partners, including in our technology updates right now. We're 
undergoing a total, I would call it, revitalization of how we 
are able to utilize technology, which is really the most, 
probably, capable tool we have to fight child sex trafficking.
    Updating our website, making our CyperTip capability and 
analysis go a whole lot faster through partnerships with 
organizations like Intel Corporation.
    We're doing a lot right now through rebuilding to the 
future and being a very forward leaning organization to be able 
to combat the scourge of child exploitation.
    Mr. Guthrie. Thank you. As the committee considers future 
reauthorizations of the act, will you discuss what changes to 
the law are needed to support vital work of identifying and 
recovering missing and exploited children?
    Mr. Clark. Well, the more effort and resources we can pour 
into this particular problem, for example, since the child 
exploitation issue has really, as you probably know by some of 
the statistics I just mentioned, have really doubled, 
quadrupled, and gotten to be really out of hand.
    I think all the efforts that Congress can do to help us 
combat the issue of child exploitation would be vitally 
important to us. It's been noted that practically everywhere I 
go to speak, that issue is really the number one priority.
    If you think back since 2013 to the present, and you just 
look at some of the statistics that we have seen, now at the 
Center in 2017, the volume in the pipeline is huge.
    Mr. Guthrie. Again, I appreciate all the work that you have 
done. Somewhere, after we had the meeting with you guys, we 
actually went home and did roundtables in different 
communities. And had people from the--we had judges, we had 
people from the different groups. We explained to people and 
tried to make people aware of how prevalent it is in South 
Central Kentucky. You know, we think it is just big cities, but 
it is not.
    And hotel owners, we had some name brand franchises, to 
make sure they were aware, and there were some things and tips 
we had from your group about let the hotel manager or does it 
seeming like different people coming in and out all the time, 
just what to look for, because you know, in a hotel are not 
seeing the same people every day, but sometimes when you start 
seeing that.
    I thought it was very helpful, and I think we were able to 
spread some of that information to our district, so I recommend 
my colleagues to do that.
    And again, I appreciate what you are doing, what your staff 
is doing. Appreciate you yielding, and I definitely appreciate 
the courtesy of my two friends here for letting me go out of 
order. I appreciate it very much, and I yield back my time.
    Chairwoman Foxx. Thank you, Mr. Guthrie. Ms. Bonamici, you 
are recognized for 5 minutes.
    Ms. Bonamici. Thank you, Madam Chair, and thank you again, 
Mr. Clark, for your testimony. We are policymakers here, but 
those of us who are parents never really take off our parent 
hats. I really appreciate your work.
    And as I mentioned in my opening statement, I am concerned 
about children who run away from home. We have a lot of 
homeless youth in our school systems, and some of those 
students are emancipated. They do not have a family to go home 
to, so oftentimes they find themselves struggling to survive on 
the streets.
    Can you talk a little bit more about what NCMEC does to 
help protect these kids and actually prevent them from getting 
into sexual exploitation and trafficking?
    Mr. Clark. Well, you have hit on one of the critical areas 
of our work. We know that in 2016, for example, there were 
about 20,500 missing children cases. A far percentage of those 
missing children are what we would refer to as ``endangered 
runaways'' or ``critical care,'' often coming from broken 
homes, or being put into vulnerable circumstances and being 
very vulnerable to sex trafficking and other crimes, organized 
crime and their members who take advantage of them for.
    And so we look at this as really one of our top priorities. 
We have been working very closely with a lot of social service 
organizations. At our Center itself, we have trained numerous 
volunteers who work closely with us, who are coming from the 
social service field in their home States, in their home 
jurisdictions.
    And essentially, we are trying to equip them and have them 
help us, and we can help them be able to identify this very 
vulnerable and at-risk group.
    Ms. Bonamici. Thank you very much. You know, there is a 
group of the population that is especially hesitant to turn to 
law enforcement, or afraid, the immigrant and refugee 
population. In recent weeks, there have been increases across 
the country in ICE enforcement activities that have created 
some fear among not only our undocumented immigrant population, 
but also people who might be perceived as being an immigrant.
    We are hearing reports of domestic violence victims, for 
example, who are afraid to go to court to testify. We are 
hearing about families who are afraid to walk their children to 
the school bus. People who do not feel safe getting lifesaving 
services at shelters or food banks, and sadly, children who are 
afraid to go to school because they do not know if their 
parents will be home when they get home from school.
    So, what can NCMEC do to help families of missing and 
exploited children in these communities, families who are 
scared or afraid to turn to law enforcement, but still need to 
be protected from this type of exploitation?
    Mr. Clark. Certainly. Well, I'm pleased to report that at 
the National Center, we operate a 24/7 call center, handles 
about 500 calls a day. We are able to handle all the calls 
through all the languages. We have up to 190 different 
languages that we can have at our disposal to be able to 
interpret.
    I'm also pleased to say that I think in many instances, we 
are a first-stop call when there are circumstances involving 
missing or exploited children. We know that from our call 
center and the type of instances they have with taking calls.
    So, I think that from the Center's perspective, we have a 
longstanding track record of being very open, very receptive to 
whoever calls our hotline and wants to report to us.
    And similarly, we know from our capability to put that 
messaging out, if it's involving a missing child, through our 
social and digital media outlets, and our close relationship 
with the news media. We are very proud of our track record, and 
have numerous cases of recoveries of children from all 
demographics, so we are very proud of that record.
    Ms. Bonamici. Thank you. Of course, I mentioned prevention 
is ideal because then we prevent problems from happening at the 
outset. And as we know, technology really is a mixed blessing.
    Can you talk a little bit about what you can do and the 
work you are doing with families, so parents can educate their 
children about what to watch for, what to be aware of, with 
technology?
    Mr. Clark. Sure. We have a tremendous amount of resources 
that we're constantly improving upon. We have a NetSmartz411 
program, as we refer to it, that helps parents become aware and 
informed, which is a vital, I call them ``tools,'' that parents 
should be able to use when it comes to knowing more about what 
their children are doing online, and how to guide and protect 
them from a parental situation, to be safer when they are 
surfing the Net.
    We also have our NetSmartz program, which is age 
appropriate, for children to learn how to safely navigate on 
the Net, how to be careful, how to be safe, what to do if 
certain circumstances appear when they're surfing the Net. So 
that is another program.
    The KidSmartz program, another education and awareness 
program, teaches young children how to be safe when they're 
just out and about in the public or when they're at school. 
That might include things like bullying or what to do if 
someone approaches them to try to entice them to get into a car 
or go into a park, or in some other place where they shouldn't 
be.
    We are also interpreting--
    Ms. Bonamici. I see my time has expired. Thank you for your 
important work. I yield back. Thank you, Madam Chair.
    Chairwoman Foxx. Thank you, Ms. Bonamici. Dr. Roe, you are 
recognized for 5 minutes.
    Mr. Roe. Thank you, Mr. Clark, for what you do and your 
organization does. I cannot thank you enough. If NCMEC puts one 
child back in a safe environment, all the investments we have 
done has been worth it, in my opinion. Every bit of it. I 
cannot thank you enough for what you are doing.
    I heard--I think I heard you say that 86 or 80 something 
percent of children that actually ran away, were exploited or 
lost, were from foster care. Did I hear that correctly?
    Mr. Clark. Yes, children missing from a foster care type 
setting, where they are particularly vulnerable.
    Mr. Roe. It looks like that would be an area, if almost 9 
out 10 come from that environment, that's a way that we need to 
educate and certainly vet our foster parents better.
    My next-door neighbor is a school principal, elementary 
school principal, and she fostered some children from her 
school. It was amazing the education in Tennessee that they put 
them through--this family through--I wonder if that is being 
done around the country because it looks to me like that would 
be the first place I would focus.
    Mr. Clark. Yes, I can say that from the Center's 
perspective, we're very interested in how we can educate this 
particular cross section of our country on how to pay 
particular attention to those children who might be in their 
care.
    We do have and do provide training at the Center for a 
number of social service organizations and people who routinely 
come in contact or likely to come in contact with individuals 
of that nature on how to watch over that particular vulnerable 
group. That is a group that is also very vulnerable to sex 
trafficking.
    Mr. Roe. I have a constituent in my district who lost two 
of his children and his wife in the fire in Gatlinburg. His 
wife had been-- I am not going to mention his name now - but 
his wife had been abused basically, sexually abused as a child, 
and dealt with these demons her entire life.
    He has an idea, and I want to get together with you all and 
discuss this, about a child, and there could be abuse, there is 
no question about that, but many young people have a device, a 
PDA. Would it be feasible to have an app on the device where if 
a child is in a vulnerable or bad situation, they could punch 
that--that they could, right then, punch that device with this 
app, and then immediately contact somebody like you or 
whatever, let them know they might be in trouble?
    And I realize any time you do not let your child go to 
whatever, they might punch the app. I had three that I might 
have to punch if they did that. Basically, you see what I am 
saying, to make it easier with technology for children who are 
in an exploited situation to get out of it?
    Mr. Clark. Congressman, I'm far from a technology expert, 
so I'd probably be the last person to answer that question. We 
have added an app on-- that is available now, a child safety 
app, that has been developed in partnership with one of our 
supporters just in the recent year. And I don't know if that's 
something we might look at to add as a feature to that 
particular app. It is something we just developed and released 
about 6 or 8 months ago.
    That is relatively new, and that is the way of the future, 
you're right. So from a technology perspective, we'd be 
interested in looking at that.
    Mr. Roe. I will meet you or I will have my staff meet with 
you afterwards. Just, I am going to run through, I do not have 
a lot of time left but you mentioned NCMEC approaches each case 
of a missing child on an individual basis. Can you kind of walk 
us through the steps of how that works?
    Mr. Clark. Sure. When a child is reported missing to us, 
it's very critical that we get the information and word out 
into the hands of the law enforcement community quickly, if it 
hasn't already been done so. In certain cases, that is the 
case.
    So once that happens, we use a variety of social media, 
digital media capabilities to get that information in the area 
where the child is missing.
    So, for example, if a child is missing in Tennessee or 
somewhere locally, it may not make sense to have that 
information broadcast to Oregon. So, we're able to geo-fence 
that information, work quickly with the local media outlets to 
get them to get that information out. We have even worked with 
other law enforcement organizations to get that onto digital 
billboards and the like. So, getting the information out 
quickly is vital.
    If there's any data analytics or case analytics, we have 
the analysts on board that can work with that as well, to make 
sure that particular case is given as much priority and 
attention as there can be.
    Mr. Roe. You do not have time to answer this, but maybe at 
some point in time you can. My time has expired. What are your 
biggest needs that we could help you with? I will leave you 
with that thought.
    Chairwoman Foxx. Thank you, Dr. Roe. Mr. Courtney, you are 
recognized for 5 minutes.
    Mr. Courtney. Thank you, Madam Chairwoman and thank you, 
Mr. Clark, for being here today. This is an issue where, again, 
I think you are going to have strong support from both sides of 
the aisle to make sure reauthorization moves forward in a 
timely fashion.
    I want to thank the Center for its work with my office and 
Congressman Erik Paulsen from Minnesota. Last year, we finally 
passed the Recovering Missing Children's Act, Public Law 184, 
that President Obama signed into law on June 30.
    Again, this was to address a problem that was actually kind 
of stunning in trying to get your head around it: the New York 
Times with the help of the Center published a report back in 
2010 that the Treasury Department was actually aware of the 
location of missing kids because of abducting adults having the 
gall to claim an exemption on their tax returns, but, 
unfortunately, the privacy provisions of the IRS Code prevented 
the IRS from sharing that information from investigating law 
enforcement.
    Again, it took 5 years for us to get this measure through, 
but, as I said, it has now opened up a pathway, so that law 
enforcement can apply for a waiver from the IRS privacy 
provisions to again investigate tax returns to see if a child--
to locate a child because of the fact that data is sitting 
right there in the government's lap. And again, the Center was 
very instrumental in terms of helping us make that case over 
that time period.
    The question I wanted to ask, so it was June 30 it was 
signed into law, we have done some follow-up with the Justice 
Department and the IRS about, again, this tool is out there, 
making sure that, again, police departments, State and local, 
are aware of the fact that is there.
    And frankly, there has not been a lot of movement in terms 
of broadcasting it that we, at least certainly, have picked up. 
I do not know if you have anything you can shed light on or at 
least we can work together to again making sure this hard 
fought, you know, measure, which, again, the estimate is it is 
a couple thousand kids that have exemptions claimed by 
abducting adults based on the Treasury analysis that was done a 
number of years ago.
    Mr. Clark. Well, that law certainly makes sense to me, and 
I applaud the efforts to be able to look at some issue like 
that and be able to make some headway with it. I'm not deeply 
informed on where that particular issue stands at the moment.
    At the National Center, we sort of embrace the mindset that 
any tool or technique or capability that we can use to help 
find missing children, we should do it. That's in conjunction, 
of course, with all the legal remedies we can find and public 
policy issues we can employ.
    And so, that particular example, I think, is a good one, 
but I'm not deeply informed on where it currently stands.
    Mr. Courtney. Thank you, again. Hopefully, we can follow up 
after today. Again, it is kind of amazing that one arm of the 
government is aware of the location of a missing child and 
cannot share it with other arms of the government that are 
investigating it, so that was the whole point of this measure, 
is to create a bridge, so that flow of information can occur.
    So, thank you for being here today. I look forward to 
working with you on that.
    Mr. Clark. Would love to work on that.
    Chairwoman Foxx. Thank you, Mr. Courtney. Mr. Walberg, you 
are recognized for 5 minutes.
    Mr. Walberg. Thank you, Madam Chairwoman and thank you, Mr. 
Clark, for being here, and as my colleagues have stated, and I 
echo it again, thanks for the work you do. It is work that many 
people could not do, and would not choose to do. Not because 
they do not care, but I am sure each day you are challenged 
with the stories that you hear, and frustrated at times with 
the things that stand in your way.
    In your testimony, you stated that more can be done to 
combat child sex trafficking, and I agree. That is why in the 
2013 Missing Children's Assistance Act reauthorization, I 
authored a provision to provide technical assistance to law 
enforcement and first responders in identifying, locating, and 
recovering victims of child sex trafficking.
    Could you, for us today, provide specific examples of the 
type of technical assistance NCMEC has provided in compliance 
with this provision to those first responders and law 
enforcement authorities?
    Mr. Clark. Sure and that's a wonderful question. At the 
Center, we have a whole section we refer to as our Case 
Analysis Division. They work very closely to help law 
enforcement and enable them to find missing or exploited 
children.
    In a recent case, for example, in fact, I believe it was 
part of my initial oral testimony, we were working with the FBI 
on something called ``Operation Cross Country,'' recovered 
numerous child sex trafficking victims. That was in direct 
relationship to a lot of work done at the National Center to be 
able to help locate, and help the law enforcement sources 
locate these individuals who are being trafficked.
    So that is part of, I think, a broader technical assistance 
that we are providing out there to the community. Additionally, 
we have done a lot more with our digital social media 
capabilities, to be able to let jurisdictions know, 
particularly in long-term missing cases or where there is 
exploitation, what can be done to combat it.
    So, we're very proud of the work our folks are doing.
    Mr. Walberg. Could you explain further how maintaining the 
public-private partnership model of NCMEC is vital to expanding 
and continuing the work that you do?
    Mr. Clark. I believe the way of the future is a public-
private partnership in all forms of industry. At the National 
Center, we're very proud of our record of working across the 
lines with numerous industry partners. We have a lot of our 
technology giants who work closely with us, organizations like 
Google and Intel, or Microsoft.
    Then on the State and local level, we work very closely 
with the National Association of Attorney Generals, the 
National District Attorneys Association, law enforcement 
organizations of all types.
    Many of us and some on my staff that are with me today are 
here on the Hill regularly looking at various public policy 
issues and how we can join together to strengthen existing laws 
or consider new ones.
    All this is a public-private partnership, and it's 
critical, I'd say, to our success. We can't go this alone. This 
is not a single-hand fight. This is an all-hands fight. 
Everybody who can bring something to bear to this problem 
should.
    Mr. Walberg. Do you truly feel that entities like Google, 
Microsoft, heavily connected with the social media through the 
Internet and all of the rest, and some of the trolling places 
that go on there and the like, do they really get their part 
from both aspects in this issue?
    Mr. Clark. They do. In fact, a lot of the spike in the 
number of the CyberTipline reports we have seen in recent years 
is a direct correlation through the awareness and the reporting 
done through our electronic service providers, organizations 
that have something to do with the world wide web, so we have 
strong partnerships there.
    Mr. Walberg. Okay. We would certainly hope that continues 
and expands. That is a crucial area that impacts the 
trafficking in great ways.
    Mr. Clark. Absolutely is.
    Mr. Walberg. Thank you. I yield back.
    Chairwoman Foxx. Thank you very much, Mr. Walberg. Mr. 
Sablan, you are recognized for 5 minutes.
    Mr. Sablan. Thank you very much, Madam Chair. Thank you for 
having this hearing. Mr. Clark, I have nothing to contribute. I 
am here to show my support for program you are doing with your 
organization. Obviously, not everything you do can be made 
applicable in the Northern Mariana's, but we do not have long 
highways and things but I am aware we do have these two child 
who were lost years ago on their way to school, and have not 
been located. I do not know them still missing or something 
worse.
    I am here to show support, and to also urge the committee 
and this Congress to authorize the program or at least where it 
is possibility.
    Madam Chair, thank you very much for holding today's 
hearing and I yield back.
    Chairwoman Foxx. Thank you very much. Mr. Mitchell, you are 
recognized for 5 minutes.
    Mr. Mitchell. Thank you, Madam Chairman. You referenced in 
your testimony as previous question that a significant 
component of missing children are children in foster care. Do 
you have any data or anecdotal information on what--it is great 
to try to find the children, but what causes more often than 
not foster children to end up running away, which is often the 
case? Can you share some insights on that?
    Mr. Clark. Well, only through some of the individuals that 
work closely with the Center, who are more--have level of 
expertise far beyond what I do--but we often find that there's 
elements of what might be commonly referred to as ``a broken 
home,'' children who might be vulnerable.
    There's also a group of young adults, young teens, who, for 
a variety of reasons, get into situations of substance abuse or 
other situations that might pull them from a home element that 
puts them into a vulnerable place. They end up in some type of 
an alternate care or foster care type situation where they 
become very vulnerable to traffickers and/or organized crime 
members. So, we work very closely with those types and groups 
of individuals who come in contact with them.
    Mr. Mitchell. You work-- do you work with the State 
agencies and some of those in terms of training and services to 
try to help them identify and prevent that? What services -what 
do you undertake to do that?
    Mr. Clark. Our training center operates training classes, I 
would say almost on a weekly basis. Since inception, we've 
trained about 330,000 individuals, some in law enforcement, 
some from organizations that would address this very issue of 
vulnerable youth at foster care type situations.
    So, that's an effort that we try to pay particular 
attention to and pour a lot of training resources into as a way 
to help educate and inform that part of the population.
    Mr. Mitchell. Thank you. You also noted and we are aware 
that children with autism and other special needs are 
particularly at-risk, particularly at-risk, in fact, of 
significantly bad outcomes. You folks have undertaken a variety 
of services for training law enforcement. Can you outline a 
couple of those, whether there are enough resources to meet the 
need in your opinion?
    Mr. Clark. We have been working very closely with 
organizations like Autism Speaks, I think probably a national 
leader on that. Now, we have a whole new protocol and training 
that we use to help law enforcement organizations, particularly 
when a child goes missing who has autism. We have what I would 
refer to as ``subject matter experts,'' who advise that local 
jurisdiction on how to search, where to search, what types of 
resources are available. That's all free of charge from the 
National Center.
    Sadly, we find cases where the outcome is not what we hoped 
it would be, but we have been partnering now with a lot of the 
groups that are involved in autism and how we can help when a 
child goes missing.
    Mr. Mitchell. Do you have enough resources putting in that 
to effectively disseminate that to law enforcement across the 
country at this point?
    Mr. Clark. Well, we could always use more help for that, 
for sure. I'm always hesitant to come to Congress asking for 
more, but there are times when we are spread thin. 
Organizationally, if you look at our workload measures compared 
to our employee population base today, the workload measures 
are going up, our employee population base is relatively 
stagnant.
    Mr. Mitchell. One last question, if I could hop back. Dr. 
Roe asked, and you did not have time, what the biggest need was 
you face. Could you-I will take the time to see if we can get 
an answer to his question-could you help us with that?
    Mr. Clark. Sure can, yeah. We always want to, I think, pour 
more resources into the technology capabilities that we can use 
at the Center, especially when it comes to combatting the 
issues of child exploitation. It's been our biggest area of 
growth, and that is in terms of crimes and situations that are 
happening.
    The individuals who are working day and night to try to 
find these at-risk people or people that are being victimized, 
pour a lot of time and effort into that, so funding and 
resources for that, I think, would be vital to us as part of 
our growth in the future.
    Mr. Mitchell. Thank you very much, and I will yield back. 
Thank you.
    Chairwoman Foxx. Thank you, Mr. Mitchell. Mr. Takano, you 
are recognized for 5 minutes.
    Mr. Takano. Thank you, Madam Chair. Mr. Clark, as you know, 
the Trafficking Victims Protection Act does focus on sex 
trafficking, but it also, I think, made mention of labor 
trafficking as well. Is there any mechanism in place to 
identify and ensure appropriate services that are provided to 
youth labor trafficking victims?
    Mr. Clark. Well, the primary focus of our work at the 
Center involves child sexual exploitation. From time to time, 
we are made aware of or come across cases that do involve a 
child labor issue, and we work very closely with law 
enforcement on those particular issues and making sure it's 
addressed.
    Although I don't have any particular data that is at my 
disposal that I could share with you on that, but when we do 
run across it, we do handle it.
    Mr. Takano. Well, perhaps, is there data available? What I 
am aware of is that child welfare agencies are required to 
identify and document sex trafficking but not labor 
trafficking. And I think that is kind of a critical gap in 
screening and services, don't you think?
    Mr. Clark. It would be, and Congressman, what I'd probably 
have to do is get back to you on that in terms of what the data 
would show. I'm not deeply informed on what that particular 
metric is.
    Mr. Takano. Yeah, I do salute the work that you are doing 
on sex trafficking, but I think we ought to maybe also not take 
our foot off the pedal on the work that you are focused on, but 
also at the same time I think expand the scope to also include 
labor trafficking.
    Can you tell me what services, outreach, and support, is 
being provided to prevent the trafficking of LGBTQ youth or to 
respond to their specific needs, what barriers are you 
encountering in meeting their needs?
    Mr. Clark. I'm not aware of any barriers or particular 
issues or problems that we have seen at the Center, 
particularly with our call center, both that handles the calls 
that are coming in from the public as well as our CyberTipline, 
that points to any dysfunction, and what we do, we tend to 
treat every case, every call, every parent, every person who 
calls in on equal footing, and do our best to help resolve 
their particular situation, but I'm not aware of any particular 
concerns or problems from the National Center's point of view.
    Mr. Takano. Is there any particular outreach because this 
target group, you know, in order to really be effective in 
preventing trafficking among members of this group, you might 
need to look at special efforts to try to reach them.
    Mr. Clark. We will certainly do that. I know that our 
training materials, education awareness materials, are broadly 
disseminated. I don't know if that's maybe part of what might, 
you might also seeking from me. But as I mentioned, I think, to 
one of the other questions, we work quite sufficiently in 
trying to train, educate, and inform all cross sections of our 
vulnerable youth on how to protect themselves.
    Mr. Takano. What is the relationship between juvenile 
status offenses and trafficking? How can juvenile offenses be 
handled in a manner that does not increase youth vulnerability 
to trafficking? For example, alternatives to arrest and 
incarceration?
    Mr. Clark. I'm not deeply informed in that particular 
topic, Congressman, only because most of our work as it relates 
to vulnerable youth is directed really in the area of sex 
trafficking, child sex trafficking, online enticement.
    I'm certain, though, at least I would believe there would 
be a correlation between those arrested and other juvenile-type 
crimes or circumstances that could relate to them being put 
into a certain area of vulnerability, much as we talked about 
with some of the endangered runaways or others who tend to end 
up in the criminal justice system more often.
    Mr. Takano. Well, so, juvenile status offenses in 
particular that relate to arrests and incarceration, there may 
be some relationship; we ought to investigate. My time is 
running out and I yield back, Madam Chair.
    Chairwoman Foxx. Thank you, Mr. Takano. Mr. Garrett, you 
are recognized for 5 minutes.
    Mr. Garrett. Thank you, Madam Chair, and I want to thank 
Mr. Clark for being here today, and tell him that I think it 
was 11 years ago when I first began working with NCMEC, and I 
will offer a little bit of introduction by way of essentially 
an offer to help where I may here.
    I started as an attorney in the Computer Crimes Unit of the 
Virginia Office of the Attorney General, primarily working on 
CP, and in so doing, getting to know the folks at NCMEC very 
well.
    Ultimately, became a local prosecutor, and started an ICAC 
Unit that was subordinate to Sheriff Mike Brown and Detective 
Mike Harmony, who I am sure you know. By the way, I have been 
texting a couple of those guys. They told me to ask you how 
Ernie Allen is doing.
    Mr. Clark. Yes.
    Mr. Garrett. Go ahead. They did not say ask rhetorically 
how Ernie is doing. What's Ernie up to these days?
    Mr. Clark. Yes, I would just say we encounter Ernie quite a 
bit, and he's doing quite well.
    Mr. Garrett. So, all this is by way of simply suggesting 
that, number one, the kudos and thanks you have gotten are all 
well-earned. I want to add my personal experience to this in 
thanking you.
    When we charged and arrested and convicted Joseph Okoh or 
Daniel Shelton or Michael Robinson, we never knew how many kids 
we saved because you do not stop this predation, whether it is 
CP or physical exploitation or sex trafficking. The thing that 
we learned and that NCMEC has been an advocate for teaching is 
that you do not wake up in the morning and think preying on a 
child is a good idea on Tuesday and not wake up feeling the 
same way on Wednesday. Something is just wrongly wired. So, you 
cannot ever quantify the good you do, and I think that needs to 
be noted.
    Having said that, there was an obscure ruling by an obscure 
judge named Gorsuch--I think you know where I am going with 
this--in the Tenth Circuit last year, I think in August. It was 
U.S. v. Ackerman, where they ruled that NCMEC, for the purposes 
of the Fourth Amendment circumstances, was a government actor, 
and essentially good data that was received through 
collaboration with a major Internet service provider would be 
thrown out because you all did not have a warrant as a 
government actor. With your experience as a marshal amongst 
other things, you understand the Fourth Amendment well.
    Is there anything being done by way of a workaround, would 
it be prudent to segregate the Tipline from the remainder of 
NCMEC, or is it simply a paperwork burden that we need to meet 
in order to respect people's constitutional rights? And I am a 
big advocate for the Fourth Amendment as well, but what is the 
procedural change that has been implemented in light of 
Gorsuch's ruling in Ackerman that will allow us to continue to 
save these kids and get the convictions on the back end?
    Mr. Clark. Sure. The Ackerman decision required us to take 
a look at some of our internal practices and policies. We've 
had to adjust some of that now, just in recent times, for 
example, making sure some of the law enforcement heads who had 
been previously on our board of directors are not on our board 
of directors, making proper separation of that.
    We're also looking at internal space needs, to make sure 
that there is truly separation of duties and responsibilities 
from the law enforcement components who have a work engagement 
with us, so that's another area we're working very closely on.
    And then addressing any of the other legal issues that 
might spill out of the Ackerman decision that we think could be 
helpful to us maintaining our independence, which we strive 
very, very much to do.
    I would like to say on behalf of the Center that we're an 
organization that likes to drive in the center of the road. We 
try our darndest to comply with all legal issues and make sure 
we are in full compliance.
    Mr. Garrett. So has there been a subsequent case to test 
your protocol changes as it relates to procedures post 
Ackerman? You understand where I am going with this?
    Mr. Clark. Sure.
    Mr. Garrett. You guys did good stuff as a private entity, 
the courts ruled you were a government actor, that brings into 
requirements, obviously, a lot of Fourth Amendment scrutiny, 
and you have told me you have changed your TTPs: your tactics, 
techniques, and procedures. Have we had a subsequent test? Do 
you feel good about where we are, that the information you 
might receive from the Tipline would be actionable without 
jeopardizing a conviction?
    Mr. Clark. Sure. And in fact, a few of the things--
adjustments we made on the CyberTipline were done even prior to 
the final outcome of the Ackerman decision, but there have been 
subsequent cases that have been filed that have been, I guess, 
similar in nature. I don't know exactly how many, but I'd say a 
few, as is usually the custom when a case like this comes out.
    I can't say that any of them particularly tested our 
changes or our protocols yet, but I would imagine, in fact, a 
lot of the reason why we're trying to make some of these 
adjustments is to make sure we maintain that proper 
independence as it relates to the work we do.
    Mr. Garrett. I thank you immensely for what you do and for 
your time, and I would yield back.
    Chairwoman Foxx. Thank you, Mr. Garrett. Ms. Adams, you are 
recognized for 5 minutes.
    Ms. Adams. Thank you, Chairwoman Foxx and Vice Ranking 
Member Bonamici, for bringing us together to discuss this 
important topic. Mr. Clark, I want to thank you for sharing 
some of the work that NCMEC does.
    One of the greatest responsibilities of adults in our 
society is to look out for the health and safety of our 
children within our communities. As a parent, grandparent, 
concerned member of my community, I am greatly disturbed by the 
frequency of children who go missing, are exploited, or 
victimized, and I am appreciative of the work that you are 
doing.
    In your testimony, you acknowledge that children with 
special needs go missing at high rates. Are there other 
demographics of children that are disproportionately reported 
missing or fall victim to exploitation or violence?
    Mr. Clark. I don't believe there is any other demographic 
that might address your particular question. You know, we kind 
of look at the groups that are vulnerable, and we know as we 
refer to them, endangered runaways, are particularly 
vulnerable.
    Thankfully, the other categories of individuals who have 
disappeared or run away, such as those that are involved in a 
family abduction or a nonfamily abduction, we're seeing a fair 
amount of those types of cases. The family abduction situation 
is one that also or could be somewhat troubling, depending on a 
parent, where they are going, where they're fleeing to, 
especially if they travel internationally.
    Ms. Adams. Okay. In D.C., over the last 2 weeks, social 
media has been a buzz because between 8 to 10 young black and 
Latino youth went missing, over the course of less than 2 
weeks, with very little media attention.
    Have you noticed which cases of missing children become 
visible and which cases do not? And what does NCMEC do to 
provide those less visible disappearances with resources and 
support, and what resources and support do you have available 
for making those more visible?
    Mr. Clark. We constantly make a plea to law enforcement 
that we are available to help them with resources, and we have 
a whole organization that we call ``Team Adam.'' It is free of 
charge, ready to be deployed in any situation where there is a 
missing child, but we only are involved in those cases which we 
know about.
    Now, simultaneously with this hearing, I think the 
Washington, D.C. Police Department is hosting a press 
conference. Some of our staff from the National Center have 
been invited to attend, and we are sending some people there.
    So, the awareness part is critical. We tell law enforcement 
quite frequently the resources that we can deploy and bring to 
bear are quite formidable, and they are for the most part free 
of charge. So, again, we are there at their disposal to help.
    I'm not sure which among those cases referred to from 
Washington, D.C., may have been ``intake,'' as we call it, into 
our system, so that would be something worth noting.
    Ms. Adams. Let me ask you a question about, because you 
mentioned the rise in sextortion, and with the wide spread of 
social media and digital platforms, it is not hard to imagine 
this is a growing problem, so what are some of the best 
practices that NCMEC has found while investigating this issue?
    Mr. Clark. Education and awareness is a key critical thing. 
We worked in conjunction with the Department of Justice over 
the last year to produce a public service announcement on this 
whole topic of sextortion.
    We've shared that particular training module with many, 
many law enforcement organizations, the National Association of 
Attorney Generals, the National District Attorneys Association, 
other child advocate groups.
    The more parents become aware of this issue, the more 
children become aware of the issue, I think it helps as a 
prevention tool.
    So, we've done significant work to educate and inform the 
public of this particular new issue that has popped up on child 
exploitation.
    Ms. Adams. Thank you. I am about out of time. Madam Chair, 
I yield back.
    Chairwoman Foxx. Thank you, Ms. Adams. Ms. Stefanik, you 
are recognized for 5 minutes.
    Ms. Stefanik. Thank you, Madam Chair. And thank you, Mr. 
Clark, for your testimony today. I want to follow up on Ms. 
Adams' line of questioning. In your testimony, as she stated, 
you mentioned the disturbing emerging trend of sextortion, 
including a 150 percent increase in reports of sextortion since 
2014.
    My question is two parts. Other than the increase, what are 
additional factors that led to the Center to label this as an 
emerging trend? And my second question is, you talked about 
some of the additional steps NCMEC has taken through family 
support services and working with law enforcement, have you 
engaged schools and school districts on this important issue?
    Mr. Clark. Sure. If I may start with the last question you 
asked first? We are working closely now with private sector 
partners to try to get some of our training and education 
materials in all schools. We would love all school 
organizations to be able to bring our NetSmartz and KidSmartz 
programs into the school systems to educate particularly the 
vulnerable groups of youth as they enter their teenage years, 
which it seems to be the time when the sextortion issue starts 
to happen.
    Now, with the prevalence of super computers that everybody 
carries on their hip called an iPhone or, you know, that type 
of technology, it has become increasingly, and I think that is 
where it is an emerging trend or a vulnerability, increasingly 
easier for youth to get trapped in or involved in issues of 
sextortion.
    Those who purvey that crime know that, and they are able 
to, I think, capitalize on the various apps that are out there, 
the various ways and means and tricks to get young children to 
engage in something of a sextortion.
    Ms. Stefanik. Two sort of factual questions that I have. 
Given the emerging trend, can you quantify what percentage of 
cases of sextortion where the victim is a girl versus whether 
it is a female or male? What is the breakdown?
    Mr. Clark. I don't have the finite breakdown exactly, but 
we do see more of a prevalence with young girls. However, we've 
also seen an increase probably in the last 2 to 3 years of that 
involving also young boys, so the majority of the cases involve 
young women, but there is an increase in cases involving young 
men, young boys.
    Ms. Stefanik. And my second sort of factual follow-up 
question is how do you intend to measure the effectiveness of 
these outreach programs to law enforcement, to district 
attorneys 2 years from now when we are asking this question? 
How are you going to measure whether NCMEC's efforts have been 
effective at raising awareness and tackling this issue?
    Mr. Clark. Well, as the new CEO for the organization, I've 
noticed that perhaps one deficiency we've had in recent years 
is not doing a lot of good analytics on what we're seeing in 
metrics.
    We see emerging trends and some things that are part of the 
datasets that come in from a variety of our cases, and things 
we can easily measure, but it's important to me to be able to 
measure and perhaps deploy our resources into areas where we 
see there's an increased need.
    So, I believe we're doing that now. We're getting some help 
from some of our technology partners to be able to do that, to 
look at big data analytics, predictive analytics, to be able to 
see where emerging trends are going to happen, and how we can 
put resources there to help combat it.
    So, I would say at our next iteration or hearing, we should 
be able to point to more success in that area.
    Ms. Stefanik. Thank you, Mr. Clark. I yield back, Madam 
Chair.
    Chairwoman Foxx. Thank you, Ms. Stefanik. Mr. Allen, you 
are recognized for 5 minutes.
    Mr. Allen. Thank you, Chairwoman, and thank you, Mr. Clark, 
for being with us today and tackling this. Looks like this 
problem is becoming more of a problem rather than less of a 
problem, which is troubling, and although we know that in our 
society today, evil exists.
    And I guess my question is this, and it stems off what the 
Congressman--Congresswoman Stefanik was talking about is, what 
are the tools we need to fix this, to curb this, to--? Is there 
some way we could start on our education system, is there 
something from the standpoint of the culture, from--?
    I mean, what exactly, how do we put our finger on this 
thing and just tell people just how bad and wrong this is? I 
know, do we increase penalties, do we--? You know, are you 
studying ways that we can stop this terrible thing?
    Mr. Clark. Sure. We are always looking at ways we can stop 
it, but I think some of the increase and some of the concerns 
that we see with the capabilities of technology today, where we 
truly are a world without borders, vulnerability of children is 
spreading essentially worldwide. In fact, a great majority of 
our CyberTip reports have an international connection, so, you 
see the whole world is affected by the situation of child 
exploitation.
    Education and awareness from the parents' level, I think, 
is very, very key. The more informed and educated a parent is 
about what their children are doing, who they are with, what is 
on their iPhones, what app they have, and who they are 
communicating with, there is a level of vulnerability there 
that many parents may recognize, but not actually take action 
to do.
    Now, how do you get parents to do that? I'm not in every 
house in America to be able to tell them what to do but, I 
believe that, sometimes I tell parents ``it's okay to be a 
little paranoid and ask questions about what your children are 
doing,'' and that's just a fact of the matter. So, a number of 
things like that are what are contributing to this.
    Mr. Allen. Are we getting the word out about how serious 
this problem is? I mean, a lot of parents, I mean, really do 
not hear, you do not hear a lot about this on the media or 
other sources. How do we get that message out so that parents 
do what is right as far as the warning their children about 
these predators that exist out there?
    Mr. Clark. Congressman, I think one area where we are 
trying to do more of is we have a program called NetSmartz411 
that is primarily aimed at the parents. We would love to be 
able to get that out in more available formats, make it 
available, easily available. It's part of a training curriculum 
we're trying to do with our new website, which we are in the 
process of overhauling.
    Being able to put those tools in every home in America, so 
that parents can have a resource to know what to do. I've ran 
into many, many parents who, for a variety of reasons, maybe 
they're just not technology savvy, aren't quite sure how to 
keep an eye on things or watch what's going on with their 
youngsters.
    Mr. Allen. Well, obviously, young people are notoriously 
curious, which is not a bad thing, but at the same time when 
you have evil lurking like this out there, you have to deal 
with it. So, just let us know whatever we can do to curb this 
and it would really be great if we could put a stop to this 
cause it is tragic.
    Mr. Clark. Fantastic, yes.
    Mr. Allen. Thank you, sir. I yield back.
    Chairwoman Foxx. Thank you, Mr. Allen. Mr. Clark, I will 
yield to myself now 5 minutes. We very much appreciate your 
testimony today, and the great work that the Center is doing.
    You have mentioned shifting resources into electronic cyber 
security and those kinds of areas, which certainly makes sense 
but could you provide us some examples of how program 
evaluation has led to shifting resources to change the way you 
are operating? Because we are very much concerned about 
accountability and what is being done to evaluate at every 
level and every program that we fund.
    Mr. Clark. Certainly and that is testimony to the committee 
in making sure not only that you are appropriating money 
wisely, but also supporting the great work we're doing.
    One of the things I've been doing as CEO is examining all 
areas of our operations, particularly with an eye toward 
putting the financial resources and the employee resources 
where they're most needed, and because of the circumstances, as 
we have talked about a lot in this hearing, involving child 
exploitation, that is a key area where we want to see some much 
needed resource growth.
    On the missing children side as well, we continue to see a 
number of vulnerabilities there. I think when you look back on 
the recent years, last few years, we continue to see a lot of 
efforts poured into the long-term missing cases, a topic that's 
not often talked about too much. But there is, sadly, many 
cases in the country still, long-term missing cases, where the 
effort to continue to look for them has not been as vibrant as 
it should be.
    At the National Center, however, we pride ourselves in 
never closing a case, and making sure we are directing those 
resources there to help find long-term missing children.
    In a recent case, as you may have heard in the news, 
involving a young boy named Jacob Wetterling--his mother serves 
on our board--sadly, after 27 years, he was found deceased, had 
been murdered, and had been sexually assaulted.
    That particular case reminds us all of the importance of 
deploying our resources and spending the money wisely.
    I want to be able to give an account for every penny and 
every dollar that we're spending and where it's going, both to 
the Congress, members of Congress, and our private partners as 
well.
    Chairwoman Foxx. Thank you. I would like to know also how 
you are working with the various partner organizations, but 
mainly the States, to improve what the States are doing, both 
to prevent children from becoming missing and to help find 
missing children because this is an not area where the Federal 
Government is going to be able to solve the problem. This has 
got to be solved at the local and State level, so please tell 
us what is happening through the partner organizations and 
perhaps, if you cannot answer everything, give us some examples 
of States that are doing a better job than others. You can put 
that in writing later, if you need to.
    Mr. Clark. Certainly. There is much of our effort to do on 
the prevention side as well as training and educating law 
enforcement. Barely a week goes by that we don't have law 
enforcement organizations from State organizations, county 
sheriffs, all coming to the National Center to receive training 
and insight on how to not only look for missing children, but 
to solve the issue of exploitation.
    We also have long-term missing child case studies that go 
on pretty much on a monthly basis. Every month, we have at 
least one of those cases that we do, and we bring in all the 
law enforcement organizations that have some particular touch 
in that case, and we review every single lead to see if we can 
revitalize that.
    A third example is something being done in the State of 
Texas, where they have developed a particular interdiction 
program where they are now looking for exploited children or 
even missing children when they make vehicle stops with the 
State Police.
    We have helped with some of that training, and continue to 
want to help with that training because now we've seen some 
actual child sex trafficking victims rescued by this particular 
program. That training is now spreading to other States. There 
is a pretty significant call for that training to be done. In 
fact, I believe it's going to be done in the State of Oregon 
very, very soon as well.
    Chairwoman Foxx. Thank you very much. Mr. Thompson, you are 
recognized for 5 minutes.
    Mr. Thompson. Madam Chairwoman, thank you. Thank you so 
much for hosting this, and my apologies for getting here late, 
but I wanted to come and just first of all thank you, Mr. 
Clark, for your leadership with this. The Center does such 
great work.
    This past year, I had the privilege and opportunity to 
spend some time on just one of the days of the 2016 10th 
Anniversary Fireball Run. And these amazing teams that come 
together, spend a lot of resources for 8 days, 2,000 miles, 
each one of them essentially adopt one of these children that 
are listed as missing, distributing thousands of flyers in all 
the communities where they go.
    I think last I looked, this annual event was credited with 
recovering 44 children, which is very much appreciated. It is 
just a righteous volunteer effort that goes on.
    So, I want to thank you for your leadership and service, 
and just your commitment to recover and protect missing and 
exploited children.
    Just a quick question. Can you talk about the Child Victim 
Identification Program and how does it operate and what impact 
has it had and why is it so important?
    Mr. Clark. That's one of our more vital and critical 
programs. The Child Victim Identification Program has a bunch 
of our employees that have somewhat of what I would say is a 
terrible duty, a horrible duty, of looking at all the images, 
the videos, all the garbage, I might say, that comes in 
involving exploited children, sexually abused children.
    What they look for is particular clues in those images that 
might help identify where in the world that particular child 
is. So, they go about that duty, a terrible duty, with a great 
deal of expertise, and I'm pleased to report that they have 
made numerous child recoveries by examining videos and 
pictures, and being able to try to spot clues in those pictures 
and get that in the hands of law enforcement.
    I would say not a week goes by that I don't get information 
on a case or a situation where they have done that particular 
good work, but it is very, very difficult work.
    Mr. Thompson. Well, thank you again to you and your staff. 
I cannot imagine how difficult that would be to have that, 
important as it is, to be able to have to review those images 
in terms of their investigation work but I--you know, the 
recovery of one child is so important it is done, just 
appreciate you and your staff taking that on.
    Thank you, Madam Chair, and I yield back the balance of my 
time.
    Mr. Clark. There are, If I may, there are earthly angels 
among us. And--
    Mr. Thompson. Sure.
    Mr. Clark. That is part of the group that's there.
    Mr. Thompson. Yeah, thank you.
    Chairwoman Foxx. Thank you. I want to say thank you, again, 
to Mr. Clark for taking the time to testify before the 
committee today and I want to recognize Ms. Bonamici for her 
closing remarks.
    Ms. Bonamici. Thank you very much, Madam Chairwoman, and 
briefly, again, thank you so much, Mr. Clark, for your 
important work, and Chair Foxx, for holding this hearing. It is 
refreshingly bipartisan when we can come together and all agree 
that we need to work on this important issue.
    Just a follow-up on Mr. Garrett's comment about the 
independence. I know there is bipartisan support for making 
sure that we can, as Mr. Garrett said, protect people's Fourth 
Amendment rights, but still maintain the independence of the 
Center, so I wanted to mention that.
    And I did notice that a significant majority of the missing 
children fall within that endangered runaway category, so I 
know we have a lot of potential on this committee to address 
the root causes that go into that, why do children run away 
from home, and our work on the Every Student Succeeds Act, for 
example, with the school safety provisions, career and 
technical education that provides engaging hands-on education.
    We have a lot of potential to really address the needs of 
our students, and I hope that we can work on making sure those 
programs are funded and schools can have counselors and places 
where students can go at school, and hopefully keep them 
engaged and out of the dangerous situations where they are 
targeted.
    So, again, thank you so much, Chair Foxx and Mr. Clark for 
this important hearing, and I yield back. Thank you.
    Chairwoman Foxx. Thank you very much, Ms. Bonamici. And I 
agree with Ms. Bonamici on the fact that this really is a 
bipartisan issue. We are all concerned with protecting 
children, especially the vulnerable children in our society.
    And it is an issue that I think all levels of government 
need to be concerned about, but we all know that the government 
closest to the people is generally able to solve these 
problems, so I am very interested in the work that the Center 
does with local communities, the police forces, the State 
governments, particularly when we see these staggering numbers 
of children who run away from foster care.
    And we know there are some bad situations with foster care, 
but for the most part, the people who are willing to foster 
children are there because they care and love the children, and 
I admire them so much.
    But my understanding from reading a long, long time ago in 
child development is even children who are in bad situations at 
home yearn to be with their families. And I think that is a 
critical element here where we need to do more some way or 
another to help dysfunctional families, and having worked with 
facilities that worked with abused children, we know we cannot 
just fix children, we have to fix families, and that is where 
the problems lie but again, it is an issue that needs to be 
solved at all the levels of our government.
    So, I appreciate, again, what you and your staff do, and we 
appreciate part of your staff at least being here with us 
today, and I want to give them our appreciation, and as you 
said, all of the people who work closely with you who are not 
paid staff, but come in because they care about children in our 
country and do everything they can and I think they are unsung 
heroes, and all that we can do to acknowledge their work, we 
should do.
    So, thank you all very much. There being no further 
business, the committee stands adjourned.
    [Additional submission by Chairwoman Foxx follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Additional submission by Mr. Scott follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    [Questions submitted for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 [Whereupon, at 11:22 a.m., the committee was adjourned.]

                       <all>
</pre></body></html>
